No.

SUPREME COURT OF THE UNITED STATES
RAFAEL MARTINEZ, CITY OF CAMDEN,
SCOTT THOMSON,
Petitioners,
vs.
BRYHEIM JAMAR BASKIN,
Respondent.
CERTIFICATE OF SERVICE
I, Timothy J. Galanaugh, counsel for the Petitioners, Rafael Martinez, City of
Camden and Scott Thomson, hereby certify that on this 5th day of October, 2020, I
caused three copies of the Petition for Writ of Certoriari to be served by overnight
delivery on the following counsel:
Zachary L. Grayson, Esquire
Gerstein Grayson & Cohen
1288 Route 73 S.,
Suite 301
Mt. Laurel, NJ 08054

Attorney for Respondent
I further certify that all parties required to be served have been served.
/s/ Timothy J. Galanaugh
Timothy J. Galanaugh
Office of City Attorney
520 Market Street
Suite 419
Camden, NJ 08101
(856) 757-7171
tigalana@ci.camden.nj.us

Attorney for Petitioner

